<html>
<title> - CLIMATE CHANGE, PART I: THE HISTORY OF A CONSENSUS AND THE CAUSES OF INACTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        CLIMATE CHANGE, PART I:
         THE HISTORY OF A CONSENSUS AND THE CAUSES OF INACTION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                           Serial No. 116-15

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


        Available via the World Wide Web: http://www.govinfo.gov
                     http://www.house.oversight.gov
                       http://www.docs.house.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-637 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb8b94bb988e888f939e978bd5989496d5">[email&#160;protected]</a>                               
                       
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
      Britteny Jenkins, Subcommittee on Environment Staff Director
                     Laura Rush, Deputy Chief Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Rashida Tlaib, Michigan              James Comer, Kentucky, Ranking 
Raja Krishnamoorthi, Illinois            Minority Member
Jackie Speier, California            Paul Gosar, Arizona
Jimmy Gomez, California              Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
                                     Kelly Armstrong, North Dakota
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2019....................................     1

                               Witnesses

Jeffrey Sachs, Ph.D., University Professor and Director, Center 
  for Sustainable Development, School of lnternational and Public 
  Affairs,Columbia University
    Oral statement...............................................     2
The Honorable Tim Wirth, Former Senator from Colorado, Vice 
  Chairman and President Emeritus of the United Nations 
  Foundation
    Oral statement...............................................     4

Michael Oppenheimer, Ph.D., Albert G. Milbank Professor of 
  Geosciences and International Affairs, Princeton University
    Oral statement...............................................     6

Nicolas Loris, Deputy Director, the Thomas A. Roe Institute for 
  Economic Policy Studies, The Heritage Foundation
    Oral statement...............................................     9
The written statements for witnesses are available on the U.S. 
  House of Representatives Document Repository at: https://
  docs.house.gov.

                           Index of Documents

The following items are posted on the U.S. House of 
  Representatives Document Repository at: https://docs.house.gov.
* AIAM Technical Committee Memo from 1996; submitted by Ms. 
  Ocasio-Cortez
* Email/Global Climate Science Communications Action Plan; 
  submitted by Ms. Ocasio-Cortez
* Confidential Article, "The Greenhouse Effect;" submitted by Ms. 
  Ocasio-Cortez
* 1981 Inter-Office Correspondence re: CO2 Position Statement; 
  submitted by Ms. Ocasio-Cortez
* 2009 Ad from the New York Times; submitted by Mr. Gomez
* Questions for the Record addressed to witness Jeffrey Sachs

 
                 CLIMATE CHANGE, PART I: THE HISTORY OF
                       A CONSENSUS AND THE CAUSES
                              OF INACTION

                              ----------                              


                        Wednesday, April 9, 2019

                   House of Representatives
                        Subcommittee on Environment
                         Committee on Oversight and Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:27 p.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Hill, Tlaib, Gomez, Ocasio-
Cortez, Comer, Gibbs, Higgins, Armstrong, and Jordan.
    Mr. Rouda. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time. This committee is convening the first in 
a series of hearings on climate change and the history of a 
consensus and the causes of inaction.
    Now, I want to welcome our witnesses: The Honorable Tim 
Wirth of Colorado, Vice Chairman and President Emeritus of the 
United Nations Foundation; Dr. Michael Oppenheimer, the Albert 
Milbank Professor of Geosciences and International Affairs at 
the Woodrow Wilson School of Public and International Affairs 
at Princeton University, that's going to be pretty tough to get 
on your business card; Dr. Jeffrey Sachs, University Professor 
and Director of the Center for Sustainable Development at the 
School of International and Public Affairs, Columbia 
University; and Nicolas Loris, Deputy Director of the Thomas A. 
Rowe Institute for Economic Policy Studies and Herbert and 
Joyce Morgan Fellow in Energy and Environmental Policy at the 
Heritage Foundation.
    I will begin by swearing you in. Please stand and raise 
your right hand. Do you swear or affirm that the testimony you 
are about to give is the truth, the whole truth, and nothing 
but the truth, so help you God?
    Thank you. Let the record show that the witnesses answered 
in the affirmative. Without objection, I would like to have 
Senator Wirth, you are now recognized for five minutes to give 
your testimony. I'm sorry, Dr. Sachs, because I know you have a 
hard stop, so we're going to go with you first to provide your 
testimony. The floor is yours.

STATEMENT OF JEFFREY SACHS, PH.D., UNIVERSITY PROFESSOR AND 
DIRECTOR, CENTER FOR SUSTAINABLE DEVELOPMENT, SCHOOL OF 
INTERNATIONAL AND PUBLIC AFFAIRS, COLUMBIA UNIVERSITY

    Mr. Sachs. Thank you very much, Mr. Chairman. I am honored 
to be able to participate in these important hearings. In 
October 1992, the U.S. Senate ratified the U.N. Framework 
Convention on Climate Change, with the objective to achieve 
stabilization of greenhouse gas concentrations in the 
atmosphere at a level that would prevent dangerous 
anthropogenic interference with the climate system. This is the 
law of the land under the Supremacy Clause of the Constitution. 
Yet for almost 27 years, the U.S. Congress has failed to adopt 
any major legislation to implement this treaty. Since 1992, 
greenhouse gasses have risen relentlessly, with CO2 
concentrations raising from 357 parts per million in February 
1992 to 411 parts per million in February 2019.
    Climate safety is now nearly out of reach, thanks in no 
small part to the scandalous inaction of the U.S. Congress. In 
2019, it is a bit late to discuss the views of Congressmen 
regarding climate science. Despite the pseudo debate over 
climate science in the Wall Street Journal and Fox News, there 
is no such debate among professional climatologists. This 
science goes back 150 years. It is absolutely a consensus, and 
the type of claims that are made about the debate are simply 
bizarre.
    In 2019, it is a bit late to doubt the threats awaiting 
human kind if the U.S. Congress persists in its unconscionable 
inaction. The five hottest years on record have been during the 
past five years. The 20 hottest years on record have been in 
the past 22 years. Temperatures are already 1.1 degree Celsius 
above the pre-industrial level, and are higher than any decade 
of the past 10,000 years, the entire span of human 
civilization, the so-called Holocene.
    The U.S. and the planet are buffeted by extraordinary heat 
waves, droughts, floods, forest fires, and extreme storms. The 
damage from climate-related disasters is soaring and has 
exceeded $450 billion during 2016 to 2018, or an average of 
$150 billion per year.
    World leading climate scientist James Hansen, long NASA's 
lead climatologist, recently published the finding that earth 
is now as warm as it was during the prior interglacial period, 
known as the Eemian, when the sea level reached six to nine 
meters higher than today. Hansen concludes that we are at dire 
risk of a catastrophic rise in sea level by many meters.
    In 2019, it is a bit late to doubt the practicalities of 
stabilizing greenhouse gas emissions. Engineering studies 
galore have repeatedly demonstrated that we already have the 
technologies needed to de-carbonize most or all of the world 
energy system, and that comprehensive de-carbonization is 
within reach and is economical. The key steps are to shift 
electricity from coal, oil, and gas to renewable zero carbon 
sources, mainly solar, wind, hydro, and geothermal, to 
electrify automobiles and home heating, and to meet other 
energy needs, for example, shipping, aviation, trucking and 
heavy industry through a combination of direct electrification 
in synthetic fuels manufactured with zero carbon electricity.
    In view of these findings, the recent proposals for a Green 
New Deal make eminent sense, and a de-carbonization plan should 
be put into legislation as soon as possible. Several recent 
studies have shown how the U.S. can de-carbonize the energy 
system by 2050. Several States, including California and New 
York, are already aiming to de-carbonize their power sectors 
before that date, yet the Federal Government is rudderless and 
without a plan, because of the chronic inaction of the U.S. 
Congress.
    In 2019, it's late to claim that the U.S. should not act 
because other countries will not follow suit. The Paris Climate 
Agreement provides a mechanism to coordinate global actions. 
All 193 U.N. members States signed the agreement, yet only one, 
the United States, has declared its intention to withdraw from 
the agreement. With the science established, the climate 
disasters at hand, the future risks evident, the technological 
solutions available, and the diplomatic framework established, 
the question remains why Congress has so flagrantly failed?
    In my view, it is money. The oil industry supports the 
campaign funding of much of the Congress, much of this 
committee, and much of all of the Congress, especially on the 
Republican side. For all of Congress, the oil and gas sector 
contributed $82 million in the last election cycle. The largest 
spending was outside money at $35 million; PAC money 15; Koch 
Industries spent by itself $10.5 million; eighty-seven percent 
went to Republicans; the co-contributions, 94 percent--99 
percent to Republicans. Total campaign spending by the oil and 
gas sector since 1990 has totaled $622 million, with 81 percent 
going to Republican candidates.
    In addition to the campaign spending, the oil and gas 
industry spends an astonishing amount on lobbying, $124.8 
million during 2018, which comes to $232,000 per Member of 
Congress. The top five lobbying clients were ExxonMobil, Koch 
Industries, Chevron, Royal Dutch Shell, and the American 
Petroleum Institute. Their combined spending last year was 
$46.7 million. The total lobbying outlays of the oil and gas 
sector during 2010 to 2018 summed to a shocking $1.225 billion.
    Twenty-two Senators wrote a letter to Trump asking him to 
pull out of the Paris Climate Agreement. Every one of those 
Senators, all Republicans, was funded by oil and gas PACs. The 
total oil and gas PAC spending for the 22 Senators for the 
period 2013 to 2018 came to $5,870,000.
    The American people have lost confidence in the U.S. 
Congress. Only 11 percent of the public expresses a great deal 
or quite a lot of confidence in Congress down from 42 percent 
in the early 1970's. Only 8 percent describe the honesty and 
ethical standards of Congress as high, or very high, compared, 
for example, with 84 percent for nurses.
    Our hopes rest with politicians who choose to run their 
election campaigns without accepting the corrupting money of 
corporate PACs, especially oil and gas PACs. All politicians 
should renounce oil and gas PACs and return to the business of 
protecting the American people.
    Mr. Chairman, I implore this committee and the Congress to 
act without further delay. Twenty-seven years of inaction are 
dangerous enough. I know that I speak on behalf of millions of 
Americans and billions of people around the world who seek an 
urgent response to a world in peril. Thank you very much.
    Mr. Rouda. Thank you, Dr. Sachs. We are starting to bump up 
against a vote, but in the effort of trying to get a little bit 
more testimony in, Senator Wirth, I would like give you five 
minutes for the floor and to----

STATEMENT OF HON. TIM WIRTH, FORMER SENATOR FROM COLORADO, VICE 
CHAIRMAN AND PRESIDENT EMERITUS OF THE UNITED NATIONS 
FOUNDATION

    Mr. Wirth. Thank you very much, Mr. Chairman, and I'm 
delighted to be here and be back in the House where I spent 12 
incredibly interesting, and, I hope, productive years. It is a 
great opportunity, and I am delighted to have you here. My 
message today is really very simple. We have understood the 
science of climate change for over 40 years. It hasn't changed, 
it has just gotten more refined and more granular and more 
clear in its specificity, but the basic thrust of that science 
has not changed. We know about the climate problem; we know 
about carbon; we know where it comes from; we know how it gets 
generated. And the basic question is, given this, we have 
allowed this climate crisis to increase dramatically. And the 
question is, why did we let this happen the way it has, and now 
what are we going to do about it? That's what you all are up 
to, and I am delighted that you're taking on this small and 
modest challenge. It is enormously important.
    We went through a period in the 1980's and 1990's of 
significant bipartisan cooperation. Just as a marker of that, 
the biggest climate bill in the Senate was introduced in 1990, 
and it had 20 Senate sponsors, 12 Democrats and eight 
Republicans. That will give you a flavor of the bipartisan 
nature of this. George Bush--when George H.W. Bush spoke of the 
climate issue. He said, Now I'm going to apply the White House 
effect to the greenhouse effect, and they really went to work 
on a number of significant changes in public policy that had to 
be made. There are all kinds of examples of partnerships that 
occurred between Members of the Senate, Republicans and 
Democrats, and the same thing was going on here.
    So what happened? How did this all come a cropper, which it 
did some time in the late 1990's, early 2000's? And I would 
attribute the change and move away from this time of 
cooperation to at least two factors: one, the ozone agreement. 
The discovery of the hole in the ozone came in around 1987, and 
by--in a very short period of time, the Congress had acted, the 
Ozone Treaty was signed, and changes were made. Very quickly, 
done very rapidly. But that was a sign to other people of what 
could be done, and what, for those who are opposed to it, of 
the kind of issue that had to be stopped.
    A second marker was the clean air amendments of 1990. That, 
in a similar way, I think, caught the industries affected by 
surprise. Again, the Congress acted quickly. The leadership of 
the Congress acted rapidly. Dole and Mitchell were side by side 
in the amendments, and I think many in the industry thought 
this is getting out of control, you know, what we have got to 
do is make sure that the changes that are being requested and 
required, you know, are slowed down if not stopped.
    Out of that grew the Global Climate Coalition, and the 
Global Climate Coalition was created by the National 
Association of Manufacturers, and in it was just about every 
industry in the United States when it began in the early 
1990's. It continued for 15 years until it ran out of gas, but 
during that 15-year period of time, it had an enormous impact: 
collecting political contributions, raising enormous amounts of 
research money, doing a lot of advertising that was really 
very--very false in terms of talking about the climate crisis.
    They became a major force opposed to the changes that 
everybody in the scientific community believed had to be done 
and in which there had been a major bipartisan agreement. That 
stopped.
    Now, why did it stop in 2020 right at the beginning of the 
21st century? Well, the political pressure from these groups 
was intense, and I think a lot of people were really thrown off 
stride by that just as the industries, I think, were caught 
somewhat off guard by the rapid movement of the Montreal 
protocol and ozone, and by the rapid passage of the clean air 
amendments. I think many on the proponent side were caught by 
surprise by the very rapid development of the Global Climate 
Coalition.
    Anyway, the two groups really remained in conflict, you 
know, for, I would say, a good 15 years. And it wasn't until 
the Paris Climate Accord that began the direction of those that 
these groups began to come together, aided by another very 
significant change, which was that most of the big industry 
groups dropped out of the Global Climate Coalition. They 
realized that there was a real climate crisis coming. They 
realized that there were great economic opportunities there, 
and they realized they had to get their industries more deeply 
involved in the public policy process. This occurred over--it 
didn't happen overnight, as you can imagine, but these 
industries, many of them became very involved and, I would 
argue, very helpful in turning the corner away from the world 
of confrontation back toward a greater time, a time of greater 
cooperation.
    By the time of the Paris Climate Accord, you know, the 
world had really come together--this is a shorthand obviously--
but it had come together in a very interesting and important 
set of new coalitions designed to make progress. No longer was 
it going to be governments dictating what the solutions were 
going to be, but it was a different kind of a process that was 
grassroots, bottoms up, and very important in that fashion.
    So that's where we are coming out of 2015. We now have 
remnants of the battle. I think the current administration has 
not been helpful at all in encouraging the kind of changes that 
have to be made. In fact, they have been discouraging those and 
trying to turn back much of the progress made and to destroy 
many of the institutions that were built. But even so, the 
momentum is very significant and continues.
    Which brings me to the final item I wanted to mention, and 
that's the Green New Deal. You know, I'm a great supporter of 
the fact that the Green New Deal was introduced. I think that 
it served a major policy goal by illustrating again and 
bringing to people's attention the need to move. It was not a 
prescriptive. Nobody ever thought the Green New Deal was going 
to be prescriptive. It wasn't a piece of legislation. It was a 
not particularly well-drafted prose document. But it raised the 
issue and the urgency of the intergenerational crisis. It 
raised the urgency of the fact that, you know, we had to make 
changes that are going to impact possibly--probably, the 
poorest people in the country had to be thought about and 
focused on, and it made other Statements about what everybody 
knows has to be done, and the terms of the long group of 
changes.
    So I believe that the people responsible for the Green New 
Deal deserve a pat on the back, not a kick in the shins, but 
rather, just say, Good job, and we hope everybody can pick up 
on the thrust of what they were trying to do. So, Mr. Chairman, 
thank you very much. Delighted to be with you.
    Mr. Rouda. Thank you, Senator Wirth. And as is the case, we 
have votes that we have to go to, and, Dr. Sachs, I realize you 
may not be here with us when we get back, and Dr. Oppenheimer 
and Mr. Loris, I apologize that we're going to put a delay on 
the continuation here. And I also would like to thank my 
colleague, Mr. Higgins, for coming in, so we can get this 
started. We are going to run to vote now, so we are adjourned 
now until--temporarily adjourned until, probably about--
recessed, excuse me, until about 3:15.
    Mr. Higgins. Mr. Chairman, before we adjourn, I would 
like--on the record, I would like to submit a question in 
writing to Dr. Sachs if he is not going to be here, and I thank 
him for appearing today.
    Mr. Rouda. Absolutely, that will be fine. And we will 
recess until approximately 3:15 p.m. or when votes finish, 
whatever occurs sooner. Thank you.
    [Recess.]
    Mr. Rouda. The subcommittee will come back to order. Thank 
you, everybody, for enduring that delay. We're going to 
continue with witness testimony. Dr. Oppenheimer, I believe you 
are next up, so the floor is yours for the next five minutes or 
as much time as you need.

STATEMENT OF MICHAEL OPPENHEIMER, PH.D., ALBERT G. MILBANK 
PROFESSOR OF GEOSCIENCES AND INTERNATIONAL AFFAIRS, WOODROW 
WILSON SCHOOL OF PUBLIC AND INTERNATIONAL AFFAIRS, PRINCETON 
UNIVERSITY

    Mr. Oppenheimer. Well, that's quite an invitation. Thank 
you, Mr. Chairman, and thank the committee for holding these 
hearings. I think they're especially important in light of some 
of the rather discouraging comments about climate science, or 
the facts that we heard in this morning's full committee 
hearing. I was asked by the staff to describe highlights in the 
development of climate change science that had occurred by late 
in the 1980's to illustrate how much scientists already knew at 
that time. Although the science of climate change and the 
greenhouse effect reaches back to the early 19th century, and 
you can read my full testimony if you want a summary and 
references.
    Let me start by citing a 1979 report from the National 
Academy of Sciences, and I'll quote, ``We estimate the most 
probable global warming for a doubling of carbon dioxide to be 
near three degrees Celsius,'' which is about five degrees 
Fahrenheit, ``with the probable error of plus or minus 1-1/2 
degrees Celsius.'' Now go on, ``We have tried, but have been 
unable to find any overlooked or underestimated physical 
effects that could reduce the currently estimated global 
warming due to a doubling of atmospheric carbon dioxide to 
negligible proportions, or to reverse them altogether.''
    In other words, a committee 30 years ago, 40 years ago, 
looked hard at this issue, came up with estimates for the 
amount of warming that would come from doubling the amount of 
CO2 in the atmosphere, which we're unfortunately well on our 
way to doing, and gave an answer which is not much different 
than today's and could not find, try as hard as they would, a 
way to negate those--that warming of the three degrees Celsius, 
which is quite substantial. The same remains true today. Things 
have not changed that much in respect to how large we think the 
warming could be.
    After an avalanche of scientific developments during the 
subsequent 10 years, we already knew a number of other things, 
and I'll just summarize them. This is what we knew at the end 
of the 1980's: By trapping heat, greenhouse gasses had 
maintained a climate in which civilization developed and 
thrived. Much of the difference in the surface temperature 
between earth and its two nearest neighbor planets, Mars and 
Venus, Venus being hot, Mars being cold was due to the moderate 
greenhouse gas levels on earth. Atmospheric concentrations of 
the primary human made greenhouse gas carbon dioxide were 
increasing, we knew that at that time, mainly as a result of 
the combustion of coal, oil, and natural gas to produce energy, 
and that continues to be the case today.
    Earth's global mean or average temperature had increased by 
about four-tenths of a degree Celsius, or seven-tenths of a 
degree Fahrenheit at that time since the late 19th century, and 
sea level had risen, as well. We knew all that then by the late 
1980's. Today, earth is close to a degree Celsius warmer, and 
sea level is about 8 inches higher than it was about a century 
ago.
    Fourth, we knew that the increase in carbon dioxide in the 
atmosphere would last a millennia, a very, very long time, 
unless a way were found to artificially remove it and store it 
somewhere. The same is true today. There's a long inertia in 
this problem. If ambitions were not reduced substantially, 
earth's climate would become warmer in the next century, and 
this is looking from the 1980's, so the next century is this 
century, than it was over the entire history of civilization, 
possibly warmer than it had been for several million years.
    Now, we just either got very close to, or surpassed the 
first of those dubious milestones, that is warmer than in the 
history of civilization. We may be there already. And we are--
unless we do something to curb emissions, we seem likely to be 
headed toward a warmer planet over the next century than has 
been witnessed in several million years. Way before humans 
evolved.
    Resulting climate changes were expected to increase the 
frequency of very hot days and lead to impacts on water 
availability, crop yields, sea level, and natural ecosystems. 
We were worried then particularly about what was the canary in 
the coal mine of ecosystems, namely coral reefs, and coral 
reefs due, to a number of insults, including climate change, 
have begun to perish around the globe in the tropics where they 
live.
    Today, most of these impacts have already been detected and 
much larger changes are forecast. In other words, the broad 
outlines of a problem bearing high risk for humans in society 
were already clear, even if many important details remain to be 
fleshed out. They were already clear 30 years ago.
    To just bring us up to date, by the mid 1990's, the 
Intergovernmental Panel on Climate Change in which I have 
participated over the last 28 years, identified 19, 19 aspects 
of the global and regional climate, such as cloudiness, snow 
cover, glacier length, precipitation intensity, the thing that 
causes flooding rainstorms, to which scientists had detected 
trends associated with the warming.
    So it is not just global average temperature is going up, 
it is not just sea level is rising; many, many features in the 
climate system, probably, if you could detect all of these 
changes, every notable feature of the climate system is already 
changing. Climate change has become pervasive and detectable 
across the climate system and the earth's system as a whole.
    Since then, the scientific consensus has only solidified as 
new observations of the climate system have emerged, and 
improved modeling techniques have also been developed.
    Uncertainty on some important questions remains a fact of 
life in the climate science world. For example, the future rate 
of disintegration of the large ice sheets in Greenland and 
Antarctica and the resulting effect on sea level rise remain 
largely uncertain, particularly in terms of what will happen 
later in this century.
    By the way, the potentially unstable part of the Antarctic 
ice sheet, and the part of the Greenland ice sheet that is 
likely to slowly melt away, together contain an amount of ice 
which if it all were disgorged into the ocean, might eventually 
raise sea level by about 50 feet. That won't happen in this 
century entirely. Part of it will. Part of it will, even if we 
slow emissions, because there's a big inertia in the sea level 
rise system. Part of it will just continue to happen for 
centuries and centuries beyond, no matter what we do.
    However, uncertainty in the face of high risk--uncertainty 
like this in the face of high risk, is no excuse for inaction 
to reduce the risk. We can see the outlines of the future, and 
it is not very comforting, especially with respect to the ice 
sheets.
    I want to just finish with a word about the so-called 
climate skeptics. There's a great deal of difference between 
rational skeptics, those who are conversant with the scientific 
literature who can be convinced by evidence who subject their 
own ideas to rigorous review. There's a difference between 
those and the obdurate uninformed skeptics whose ideas about 
climate change never, or rarely are, found on the pages of a 
peer-reviewed scientific journal.
    Regrettably, climate science has been under constant attack 
since around 1990 by the proponents of the latter approach and 
their facilitators. Presumably due to the increasing political 
stakes attached to this issue. There is evidence that these 
attacks have reduced the belief by the general public that a 
scientific consensus actually exists at all, a disturbing 
development that I hope these and other similar hearings help 
to counteract.
    In conclusion, I would like to thank this committee and 
you, Mr. Chairman, for inviting me to testify, and I welcome 
the opportunity to answer questions, any questions you may have 
on this subject.
    Mr. Rouda. Thank you, Dr. Oppenheimer.
    Mr. Loris, the floor is yours for the next five minutes. 
Thank you.

STATEMENT OF NICOLAS LORIS, DEPUTY DIRECTOR, THOMAS A. ROE 
INSTITUTE OF ECONOMIC POLICY STUDIES AND HERBERT AND JOYCE 
MORGAN FELLOW IN ENERGY AND ENVIRONMENTAL POLICY, THE HERITAGE 
FOUNDATION

    Mr. Loris. Thank you, Mr. Chairman, and Representative 
Higgins, for this opportunity to testify this afternoon. I want 
to express that the views in this testimony are my own and 
should not be construed as representing any official position 
of the Heritage Foundation. With my time, I would like to offer 
four brief points, the first three being what I perceive as the 
scientific, economic, and political reasons why we haven't 
addressed climate change at the Federal level, and the fourth 
being pro-growth policy solutions that are also pro-
environment.
    First, it is clear that climate change is real, and that 
human activity plays a substantial role. However, there are 
still many knowledge gaps and uncertainties that exist, 
including the varying estimates of how a doubling of carbon 
dioxide emissions in the atmosphere affects global 
temperatures, and which trajectory of greenhouse gas 
concentrations most accurately represent future climate 
scenarios.
    Furthermore, estimating the economic costs of current and 
future climate change has its own set of problems. For 
instance, the integrated assessment models used to justify the 
social cost of carbon attempt to project costs out to the year 
2300, which is problematic in and of itself. More 
fundamentally, reasonable changes to the inputs of these models 
produce widely different numerical results making them 
unreliable in determining what the actual social costs of 
carbon might be. Other cost estimates use unrealistic 
forecasting or do not properly account for humans adapting to 
climate change over time. All of these variables impact how 
costly or not costly climate change will be.
    Second, the economic justification for Federal inaction on 
climate change is quite clear. The proposed policies at the 
Federal level would be costly and ineffective. Policies that 
restrict the use of conventional energy resources will increase 
energy prices, which is just a small part of the overall costs. 
Americans would pay more for food, healthcare, education, 
clothes, and every other good and service that requires energy 
to make and transport.
    Importantly, these policies are highly regressive as they 
disproportionately impact low income families who spend a 
higher percentage of their budget on energy costs. With regard 
to the climate benefits from Federal policy, they are 
practically undetectable. Even if the U.S. achieved net zero 
emissions goal, the averted warming would be less than two-
tenths of a degree Celsius by the turn of the century. To have 
any impact on climate, the entire world would have to quickly 
change how it consumes energy or simply remain undeveloped. 
Both of these are devoid of reality. While many countries are 
rapidly expanding their use of renewable power, forecasts 
indicate that coal, oil, and natural gas will represent the 
overwhelming majority of the world's energy needs well into the 
future. For developing countries, reducing energy poverty and 
improving standards of living are the higher priority.
    Third, when it comes to the political obstacles, consumers' 
unwillingness to pay prevents a hurdle for lawmakers. A recent 
poll found that 68 percent of Americans oppose paying an 
additional $10 per month to fight climate change. A separate 
poll found that 43 percent wouldn't even be willing to pay an 
additional dollar a month. Nor is action on climate change a 
public policy priority for voters when compared to other issue 
areas.
    Now, to be clear, my skepticism of unpopular costly and 
ineffective policies is not an excuse for complacency or a do-
nothing strategy. I believe Congress should advance pragmatic 
policies that will drive energy and environmental innovation. 
For instance, our national laboratories are important conduits 
to spur technological advancements. We have benefited from 
Department of Defense R&D and alternative energy sources that 
have not only enhanced our military's mission capabilities, but 
have also produced significant economic breakthroughs.
    Another objective for Congress should be to eliminate 
subsidies for all forms of energy to eradicate the pervasive 
cronyism and corporate welfare in energy markets. Subsidies 
concentrate benefits to a select group of politically connected 
interests and disburse the cost amongst the rest of us. 
Moreover, this preferential treatment traps valuable resources 
in unproductive places.
    Instead, we should make emissions-free energy sources like 
nuclear and renewable power more economically desirable by 
fixing the excessive regulatory burdens that plague these 
industries.
    Furthermore, competition in electricity markets provides 
greater choice, so that if businesses and households want to go 
100 percent renewable, producers can meet that demand. 
Expanding technological innovation through free trade is yet 
another avenue to meet the world's energy needs while reducing 
emissions. Tariffs and protectionist policies are unproductive.
    Last, we shouldn't dismiss the fact that access to 
affordable reliable energy and continued adaptation to extreme 
weather is critical to reducing risks for families and 
businesses. A recent working paper in the National Bureau of 
Economic Research concluded that the drop in natural gas prices 
induced by the shale revolution averted 11,000 winter deaths 
per year.
    In addition, more resilient durable infrastructure will 
protect people from climate-related vulnerabilities. Using the 
best scientific and technical information available will 
improve resilience and readiness for current and future 
climate-related challenges, no matter what the cause. Mr. 
Chairman, thank you again, and I look forward to your 
questions.
    Mr. Rouda. Thank you, Mr. Loris. At this time, I would like 
to recognize myself for five minutes for an opening Statement. 
This hearing is a first in a series of hearings on climate 
change that the Oversight Subcommittee on Environment plans to 
hold during the 116th Congress. It is my goal that we can work 
in a bipartisan manner to examine the history of climate 
change, the effects of climate change that are currently being 
felt across this great Nation, and solutions to the current 
climate crisis, solutions that not only will address this 
critical issue but create new industries and jobs for those 
countries who take a leading role.
    It is our job as representatives of the American people to 
prevent the effects of climate change from getting worse. 
That's why I'm holding this hearing, not to point fingers at 
any of my colleagues, not to chastise industry players and 
executives just for the sake of it. We are here to solve a 
problem of enormous magnitude, and the best solutions to big 
problems have always been forged by all of us coming together 
to devise sensible, feasible solutions that account for the 
diversity of American interests.
    Today, we will affirm that the science on climate change 
has been known for decades, as we have seen from the testimony 
already. In 1977, Exxon Oil Company's own in-house senior 
scientist told the company's senior management that, quote, 
``There is general scientific agreement that the most likely 
manner in which mankind is influencing the global climate is 
through carbon dioxide release from the burning of fossil 
fuels.''
    This same scientist went on to say in 1978 that we had a, 
quote, ``time window of five to 10 years before the need for 
hard decisions regarding changes in energy strategies might 
become critical.'' Again, that was 1978. Exxon acted on this 
information, immediately launching further research into the 
effects of carbon dioxide on the planet, research that included 
extensive climate modeling.
    Royal Dutch Shell, in an internal document titled, "The 
Greenhouse Effect," outlined Shell's extensive knowledge of 
climate change implications and warned by the time global 
warming became detectable it would be too late to take decisive 
action. That was also in 1988. These aren't liberal 
environmentalists making these dire predictions. They are oil 
company's own management recognizing the scientific reality and 
the need for serious action. These energy companies knew then 
what we all know now, science matters.
    The U.S. Government also knew. In 1988, Dr. James Hansen, a 
NASA scientist, testified before the Senate Committee on Energy 
and Natural Resources on a panel convened by one of our 
witnesses here today, Senator Tim Wirth, another one of our 
witnesses, Dr. Michael Oppenheimer, testified that Dr. Hansen--
with Dr. Hansen on that panel, and together they warned the 
Senate and the American people of the dangers of a warming 
planet.
    America listened. President Ronald Reagan created the 
Intergovernmental Panel on Climate Change. President George 
H.W. Bush helped convene the Earth Summit in Rio de Janeiro in 
1992, and signed the United Nations Framework Convention on 
Climate Change, an intergovernmental treaty recognizing the 
problem of climate change and calling on all nations to take 
efforts to address it. This treaty was ratified by a unanimous 
vote in the Senate.
    It seems incredible, I know, but in 1992, the U.S. 
Government agreed with 154 nations that, quote, ``Human 
activities have been substantially increasing the atmospheric 
concentration of greenhouse gasses, that these increases 
enhance the natural greenhouse effect, and that this will 
result in an average in additional warming of the earth's 
surface and atmosphere and may adversely affect natural 
ecosystems and humankind.''
    In 1997, the nations of the world met in Kyoto and decided 
that the problem was serious enough that each nation needed to 
go further by making binding commitments to reduce emissions.
    In 2015, the parties met in Paris, and due, in large part, 
to President Obama and Secretary of State John Kerry's in depth 
negotiations with China, the parties came to a collective 
agreement that all nations in the world would work to keep the 
average global temperature rise below two degrees Celsius by 
the year 2100, and ideally below 1.5 degrees Celsius. That is 
the Paris Climate Accord.
    The U.S. was part of this global consensus until June 1, 
2017, when President Trump, contrary to overwhelming fact-based 
evidence from the scientific community, and the direction set 
by Presidents Reagan and George H.W. Bush, announced his 
unilateral intention to withdraw the United States from the 
Paris Climate Accord. This announcement was made almost 29 
years to the day after Dr. Hansen testified that global warming 
was a threat to this planet and to humanity.
    Now here we are in 2019, and the Federal Government has 
taken very little action in response to climate change. The 
science hasn't changed, the scientific evidence has been there 
all along, but the politics did. Political disagreements are a 
hallmark of democracy, and I welcome constructive debates about 
what to do about the problem of climate change. But politics 
should be separate from the acknowledgment of the problem 
itself. The science was clear then. It is equally clear now. 
And our panel today is going to help us make sure and sense of 
why the U.S. has not taken decisive action to address what we 
have known for decades.
    Again, I want to thank the individuals who have come to 
testify. I will close with, I believe, that the U.S. can rise 
to meet this challenge, and to quote John F. Kennedy, ``We will 
do so not because it is easy, but because it is hard.'' As 
Americans, this is our time to lead the world as we have done 
many times throughout our history, for us, for our children, 
and four all future generations.
    At this time I would like to turn it over to my colleague, 
the acting ranking member, Mr. Higgins from Louisiana. Thank 
you.
    Mr. Higgins. Thank you, Mr. Chairman, and thank you to our 
witnesses for their participation in today's hearing. There's a 
couple of things that I have noted from listening very 
carefully, very prayerfully, to the testimony thus far. 
Everything here, everything around us is touched in two ways by 
regulations of the Federal Government, and by the oil and gas 
and petrochemical industry, the clothes upon our back, the 
glasses that we wear, the seats upon which we lean, the carpet 
under our feet.
    Let's have no illusion about the point of today's hearing. 
The majority has called this meeting for the sole purpose of 
condemning the oil and gas and petrochemical industry. I call 
for a bipartisan and candid discussion about the challenges of 
climate change that we face as a species that are blessed to 
inhabit this earth. It is our responsibility to address these 
challenges within the parameters of our constitution, and based 
upon a sober interpretation of the science as it is available 
to us.
    I'm old enough to recall when the science of the time 
Stated that very soon, global cooling would overtake the 
planet. Then the language changed to climate change. And now in 
today's hearings, we have heard more about global warming 
again.
    So it is not the doubting of science, it is the reasonable 
question of the interpretation of the scientific data. This is 
what we seek, and we must recall that we are a union of 50 
sovereign States, a representative republic, with 
constitutional parameters, and that there's no such thing as 
Federal money. It is the people's treasure.
    We will, no doubt, hear of accusations and anecdotal 
stories to justify inquiries into American businesses. This day 
we'll hear this. By global standards, these industries are 
leaders for operations conducted in the cleanest and safest 
manner. American industry leads the planet in clean, efficient, 
and safe operation. You will, perhaps, not hear from my 
colleagues across the aisle the countless achievements for our 
Nation's energy industry has made toward cleaner and more 
efficient operations. In fact, since the year 2000, the oil and 
gas industry has invested over $108 billion into greenhouse gas 
mitigation technology.
    The slide behind me based upon reporting in 2015 and 1916 
alone, the oil and gas industry directly reduced emissions by 
the equivalent of 57.1 million metric tons of CO2. American 
industry did this, not Chinese industry, Indian industry, 
Brazilian industry, American industry. For comparison purposes, 
this reduction of CO2 is equal to the same amount of carbon 
sequestered by 67.2 million acres of forestry.
    Further, the investment in the nine hydrocarbon resources 
made by the oil and gas industry, such as wind, solar, and 
geothermal resources that my colleagues have made their 
priority, account for over 16 percent of all our Nation's 
investment into new and emerging sources. I support these 
private investments by industry and by other organizations. An 
all-of-the-above energy strategy should be our path. It is my 
goal forward for America, and I look forward to the progress 
that will be made, especially into small modular nuclear 
reactor technology, solar, and other sources of clean renewable 
energy, but this will come from American industrial investment, 
not from bureaucrats in D.C. Every one of us wants to leave a 
cleaner environment for our children and grandchildren. 
However, the demonization of the fossil fuel industry and 
radical calls for its abolishment are increasing from my 
colleagues across the aisle as posturing takes place for the 
2020 elections.
    Even if we were to completely curb our Nation's CO2 
emissions, which at this point would destroy our national 
economy and injure countless Americans, it would not make a 
dent on global emissions. Countless other nations, including 
China and India, would immediately negate any progress that we 
made. The American industrial model should be the model for the 
world, and within the parameters of our constitutional 
restraint, to recognize the rights of States and individual 
citizens therein were limited in scope, what shall we do? We 
will address these problems with reason and soundness of 
judgment. We should not call for radical proposals that end 
fossil fuel. We should be working internationally to bring 
American industry, ingenuity and standards to other countries.
    Mr. Chairman, I thank you for your indulgence. I look 
forward to today's hearing and the testimony of our witnesses.
    Mr. Rouda. Thank you, Mr. Higgins. At this time, I would 
like to recognize myself for five minutes for questions. I 
would also like to point out that I, too, Mr. Higgins, am 
thankful for the attempts and direction that the energy 
companies are leading in embracing clean energies and renewable 
energies, but as they pointed out from their own studies from 
the 1970's and 1980's, we need to do more, and we need to do 
more sooner, and that is really the goal of these hearings is 
to move in that direction, not to have discussions about 
eliminating industries, but looking at how these industries can 
help transform our economy and the world's economy to clean 
energies and renewable energies.
    This used to be a bipartisan message. In the 1970's and 
1980's, we saw bipartisan support for just this purpose. In 
fact, I used to be a Republican. I remember when environmental 
stewardship was something that was front and center for 
Republicans, and I'm hopeful that this committee, and the full 
committee, as well as our entire Congress, can get back to 
recognizing that it is not a debate about whether climate 
change exists in humankind's influence, but what we can do 
together to address it.
    So with that I would like to begin my questions here today 
by asking the panel, and I want to make sure I heard correctly. 
None of you believe that climate change does not exist. Is that 
correct? And all would agree that humankind plays a primary or 
leading factor in that regard. Is that correct? Let the record 
show that all three witnesses agreed with that information, 
both Democratic and Republican witnesses.
    That brings us to our next question, the urgency of acting 
now. Senator Wirth, what role do you think the government must 
play in order for the United States to meaningfully respond to 
climate change?
    Mr. Wirth. Well, thank you, Mr. Chairman. I think there are 
a string of activities the government should be supporting. 
First of all, I think we have to remember that one of the 
things that you have talked a lot about how things have changed 
over the last 40 years, and one of the most important things 
that has changed is the fact that so much of American industry, 
and Mr. Higgins mentioned this, so much of American history has 
become engaged, you know, been very supportive of climate 
reduction efforts, and been very much out front, in fact, often 
beyond what anybody in the government might have been doing at 
the time.
    So what are they asking? They're often asking for, make 
sure that the rules and regulations that govern our whole 
energy package, and a lot of those are Federal rules, are ones 
that can facilitate, and I think a review at all times of the 
regulatory apparatus is a very, very constructive step to take, 
and investments in the future that R&D strategy, much more 
effective than the one we have now, I would certainly recommend 
that we undertake.
    I think there are a variety of items in the so-called Green 
New Deal that must be pursued and understood. If not very 
specific items that are there, certainly the thrust that we 
have to be deeply concerned about the communities and the 
country and around the world that are most affected by climate 
change, you know, how are they affected and what kind of 
equities are built into whatever what climate solutions we 
make? What kind of intergenerational compact are we leaving for 
the next generation or the next two generations that come 
along? And how do we make sure that those interests are 
understood, which means that we have to act much more 
aggressively and much more rapidly.
    So in my testimony, I lay out a number of specific items 
that Senator Hart and I, for example, developed in response to 
the Green New Deal and all the criticism it received by way of 
saying that we thought that the Green New Deal had done an 
enormous amount of good by focusing attention, bringing people 
to think more broadly about what has to be done.
    Mr. Rouda. Thank you. Mr. Loris, some of the testimony from 
Dr. Sachs, and he is not here to talk about it, but talked 
about the money in politics. And H.R. 1, which was passed by 
the House a few weeks ago, helped and hopes to address money in 
politics. I believe some of your testimony talked about that, 
as well. Can you elaborate on, if we had greater transparency, 
in getting the money out of politics, especially in this 
industry, how that might be able to positively impact 
addressing climate change?
    Second, and arguably more important, the economic 
incentives could be shifted to drive renewable clean energies 
and allowing energy companies to be a leader in doing so?
    Mr. Loris. Yes. Well, I think the best avenue to getting 
money out of politics is to reduce government intervention into 
the marketplace broadly, and that comes with getting rid of all 
of these subsidies that accrue to the oil and gas industry, to 
the coal industry, to renewables and to nuclear, because if you 
get the government out of picking winners and losers, there's 
less of an incentive to lobby. There's more of an incentive to 
rely on the market price and price signals to drive innovation 
in the energy sector.
    So I think that the root cause of some of this is just the 
historical policies that we have had in the past, whether it is 
subsidies for oil and gas or something like the renewable fuels 
mandate, these are all policies that incentivize more lobbying 
and trying to keep the entrenched special interests the status 
quo, rather than trying to reform energy policies more broadly.
    I think the renewal fuel standards is a very good example 
because a lot of environmental activists are now against first 
generation biofuels. There's a whole host of world hunger 
organizations that are against first generation biofuels, yet 
this policy is in place because it benefits those entrenched 
special interests. So when we get the government out of the 
energy sector in picking winners and losers, it reduces that 
root cause of lobbying.
    Mr. Rouda. Thank you. And at this time, I will yield five 
minutes to you, Mr. Higgins, for questions.
    Mr. Higgins. Thank you, Mr. Chairman. Mr. Loris, there's 
been talk in the media for quite some time about natural 
disasters. I believe that is a false narrative, it is not 
supported by recorded occurrences. Being from Southern 
Louisiana, I'm going to focus on hurricanes. Over the past 60 
years, the United States has seen a steady decline in hurricane 
landfalls. This is contrary to what most Americans that pay 
attention to mainstream media, or perhaps the scientific 
interpretation of the day would say shifted since I have been 
alive from global cooling to climate change or global warming. 
That most Americans would say, surely landfalls have increased, 
but the data proves otherwise. The data clearly shows the 
natural disaster rates have decreased over the years.
    Despite these positive projections, today's natural 
disasters are more costly than ever before because of Federal, 
State, and local governments have failed to invest in 
infrastructure.
    I'm from Louisiana, born and raised in South Louisiana I'm 
no stranger to natural disasters. After Hurricane Harvey, I 
went into Texas with civilians on rescue operations, and the 
last rescue operation I personally participated in, I'll never 
forget, we rescued an elderly gentleman from his home. When we 
were getting him out of there and he was safe physically. He 
found out I was a Congressman, I certainly didn't look like 
one. I never forget what he told me. We should all remember 
this. He said, he said, ``Congressman Higgins, I have been 
living in my home since 1968. I have seen this much water fall, 
but I have never seen this much water rise.''
    This struck home to me in my heart, and since I have been 
in Congress, we have made a focus of our office to restore 
funding for proper dredging, for our water management systems, 
man-made or natural, to restore their intended parameters, the 
water is trying get back into the Gulf. We, as a government 
entity, at the local, State, and Federal level, have failed the 
American citizenry regarding the impact of disasters, which the 
data clearly shows the frequency of which have decreased, but 
the costliness has increased, not because God is dropping more 
water on us but because we have failed as government to 
maintain our water management systems.
    In Louisiana, private industry, specifically the oil and 
gas industry, is a private investor in coastal restoration 
projects to limit the effects of hurricanes while Congress 
continues to spend billions, hundreds of billions of dollars 
responding reactively to disasters, the oil and gas industry 
has invested proactively.
    Mr. Loris, looking at some of the past hurricanes that have 
impacted the Gulf Coast such as Katrina and Harvey, is it that 
these storms are more powerful than ever before, or that is it 
that we haven't significantly invested in mitigation 
infrastructure? What investments in our infrastructure help 
curb the effects of natural disasters if you would take a 
portion of this minute and 30 left, and I would like the other 
gentlemen to respond. Would investment in infrastructure help 
our Nation?
    Mr. Loris. It would. It would help our civilian 
infrastructure, and it would help our military infrastructure. 
I know a lot of the previous hearing focused on climate 
change's impact in the military, and we have seen that no 
matter what the cause is, military installations have been 
impacted by flooding, coastal erosion, and other sorts of 
natural disasters and extreme weather events.
    What happened in Nebraska most recently is a good case 
study of the Federal Government lagging on the ability to 
approve infrastructure that would have helped reduce----
    Mr. Higgins. So you concur that investment in 
infrastructure is a realistic response to the impact of natural 
events, water events, natural disasters? Doctor, do you have a 
comment on that, sir?
    Mr. Oppenheimer. Yes. I have a comment on a few things that 
you have laid out. First of all, U.S. landfall hurricanes, 
you're quite correct, there is no known long-term trend, 
however, in the North Atlantic Basin, which includes the Gulf 
and the East Coast of the United States, there has been, 
virtually, certainly, a trend in an increase in intense 
hurricanes. Now, we don't understand why hurricanes sometimes 
hit the Coast and sometimes go harmlessly out to sea.
    Mr. Higgins. That's a valid point, but I'm on limited time. 
Would you share that data with us and the committee?
    Mr. Oppenheimer. Certainly. I would also--one more point 
along those lines, Hurricane Harvey has been subject to intense 
analysis, which has shown that one of the reasons the flooding 
was so intense was because the precipitation intensity was 
enhanced by a warmer ocean feeding more moisture into the 
system.
    Your third point about infrastructure--I think you're 
absolutely right, that we need to be ready for nastier and 
nastier climate-extreme events, and we're going to, in many 
cases, need an enhanced investment in infrastructure.
    Mr. Higgins. Thank you for your clarification. And, Mr. 
Chairman, I would like to thank you for the tone that you have 
set for this hearing, sir. It is quite bipartisan, and I think 
helpful for us all.
    Mr. Rouda. Thank you. I would like to recognize the 
gentlewoman from California, Katie Hill, for five minutes and 
also ask that she chair for me while I step out for a moment. 
Thank you.
    Ms. Hill.[Presiding.] Thank you. And thank you all for 
being here today. Senator Wirth, you spent much of your life in 
public service serving your country, and I want to thank you 
for that, including as a Member of this body. You were on the 
landmark panel in 1988, which included Dr. Hansen and Dr. 
Oppenheimer, where the alarms were first sounded on climate 
change. Do you happen to remember if there was much talk about 
the next generation on that panel, and about protecting our 
kids and doing something for our kids?
    Mr. Wirth. Well, there were two scientists on the panel, 
Oppenheimer and Hansen, and I was just a convener, I was the 
political hack putting it all together. But the discussion 
afterwards was truly intense. I think people were very 
surprised to hear somebody say this is not something that's 
theoretical, but it reached over from the theoretical into the 
practical. This is something that we observed, and the impact 
that then began to engage for people was significant, and was 
there focus on young people? Yes, because we began to 
understand this wasn't going to be an intergenerational battle, 
and we're not going to be able to solve it in one generation, 
but we're leaving for the next generation an enormous legacy of 
damage that's been done to the environment and the living 
community.
    So it is our obligation to really move on it much more 
aggressively than we might have otherwise.
    Ms. Hill. The reason I ask is because I was born in 1987, 
so when you had that panel in June 1988 I was in diapers, and I 
was nine months old. I hadn't walked yet, and so----
    Mr. Oppenheimer. We would have welcomed you.
    Ms. Hill. So now I'm the generation that's here, and I have 
kids literally coming into my office almost every day who are 
seven, eight years old. Their parents are telling me that they 
have nightmares, they can't sleep because they're worried about 
climate change, and they're worried about whether there is 
going to be planet. And so, you know, I feel obligated to be 
the voice of the next generation who is standing here saying 
nothing was done or not enough was done, and I know that's not 
on you, per se, but I do think that this is a mandate that we 
have to act now.
    I'm also--I come from a district that's very split between 
Democrats and Republicans, and one thing that I have learned 
recently is that Democrats and Republicans didn't seem to be so 
far apart as they were previously. Can you tell us if Democrats 
and Republicans on the committee shared a belief in the science 
on climate change?
    Mr. Wirth. Oh, at that point, as I pointed out earlier, we 
introduced a major climate bill the first big one right after 
the Hansen hearing, and 16 titles that ranged all across 
everything we have talked about today and more. And at the time 
of introduction there were, 20 Members of the Senate who 
sponsored the bill and its introduction, and those were 12 
Democrats and eight Republicans. I mean, we were following in 
the footsteps of Dole and Mitchell, who had a very tight 
partnership in thinking about what had to be done in the world 
of clean air, and the Clean Air Act amendments were just coming 
up. There were any number of partnerships between members of 
both parties. So there was a real feeling of cooperative 
endeavor.
    Now, how that got broken up is something worthwhile you all 
thinking about, and coming to understand, because I think 
that's a very important lesson in that, and from that, we might 
get a better sense of how we bring people back together again. 
You understand our history is always a helpful thing to do, I 
think.
    Ms. Hill. Absolutely. Thank you. And, Dr. Oppenheimer, 
would you agree?
    Mr. Oppenheimer. On bipartisanship?
    Ms. Hill. Yes, with his impression.
    Mr. Oppenheimer. Of course. Many of the political leaders I 
dealt with over the years were Republicans and were exerting 
strong leadership on this issue going back to Senator--Rhode 
Island Senator Chafee, and we would love to see those days 
return.
    Ms. Hill. So, Senator, you attended the Earth Summit in Rio 
in 1992, where over 100 State--heads of State assembled to 
address global warming for the first time in history, and the 
U.N. Framework Convention on Climate Change, the treaty that 
came out of that summit, the parties, including the United 
States, bound themselves to, quote, ``Stabilize greenhouse gas 
concentrations at a level that would prevent dangerous 
anthropogenic human-induced interference with the climate 
system. That treaty was supported by both''--``by President 
George H.W. Bush, and ratified unanimously by the Senate in 
1992.''
    Senator Wirth, how did we get from that place to, you know, 
with unanimous ratification to the Senate's rejection of the 
Kyoto Protocol just five years later, it seems like a very 
quick turnaround.
    Mr. Wirth. Well, I think at that point, things were moving 
very rapidly both among the advocates and the opponents of 
doing anything in terms of climate change. I think that the 
people who were very concerned about the Clean Air Act 
amendments, about the Kyoto--about the ozone treaty that came 
out of Montreal, there were a number of major national and 
international actions at that point that I think caught many in 
the industry by surprise. It happened so quickly, and out of 
that, I think they decided to mobilize and out of that came 
their very effective from my perspective, unfortunately, the 
effect of the Global Climate Coalition, and that lasted for 
about 20 years, engaging almost every major industry in the 
country until they dropped off slowly but surely, and the 
Global Climate Coalition faded out in the early part of the 
21st century.
    Ms. Hill. I know I'm out of time, but I just want to sum up 
quickly and tell me if I'm right or wrong, but it sounds like 
the fossil fuel industry got scared of rapid changes happening, 
and kind of mobilized and left the next generation, my 
generation, in the dust, and left us with a lack of action 
entirely.
    Mr. Wirth. And the advocates on the other side were caught 
by surprise themselves at the vitriolic and incredibly well-
organized and highly funded efforts on the other side. So 
suddenly, both sides who had been spending an enormous amount 
of time and energy together for the last 25 years were split 
asunder by, you know, a rapidly changing political environment.
    Ms. Hill. Well, I would argue that we now have to make sure 
that the time is now to not be caught by surprise. We have had 
30 years to try and figure out action moving forward, and I 
thank you for your testimony, and we will carry the torch. I 
yield to my colleague over there.
    Mr. Armstrong. Thank you, Madam Chair. So when we're 
talking about how we move forward, when we talk about clean 
energy, and I talked about this a little briefly this morning 
and--but the conversation that we have to continue to have is 
as we move to these new forms and continue to use them more 
such as wind and solar, we have to recognize that in order for 
those to work--more efficiency in buildings, those things all 
are great, but the highest driver of carbon pollution in the 
United States right now is transportation, and so as we move to 
wind and solar and electric powered vehicles, we are moving 
toward batteries. Batteries are a part of this conversation, 
and the metals we use in batteries are--I'm just going to use 
two examples, because China essentially controls about 90 
percent of the world market in rare earth metals, and then 
cobalt is actually incredibly important for electric vehicles, 
and that's mined in the Democratic Republic of the Congo.
    So as we move forward with this, and we have done a lot 
over the last decade to become energy independent in this 
country, but are we having conversations about that 
infrastructure and what we're doing, because I'm not aware of a 
lot of rare earth mines being permitted in the United States, 
and I know for a fact that China doesn't always have our best 
economic interests at heart.
    So as we continue to transition into these things, don't we 
have--I mean, because we're off-shoring pollution doesn't 
necessarily mean--I mean, we're dealing with carbon emissions, 
but at what expense, and that's my question. And I'll start 
with Mr. Loris, and then but really, ask everyone, because most 
of these places would be qualified as Superfund sites in the 
United States. I mean, they're incredibly toxic to ground rot, 
they're incredibly toxic to the environment. So in our quest 
for cleaner energy it doesn't do us a lot of good if we're 
exporting pollution, whether that means we're exporting oil, 
natural gas, coal to countries that don't have our regulations 
are creating a market in countries that have an economic 
incentive to mine these products as fast as possible, and not 
in the cleanest way possible. And then from a national security 
and economic security standpoint, do we have to be concerned 
that one country will control 90 percent of essential materials 
we need to create these batteries?
    Mr. Loris. Well, I think from an environmental efficiency 
standpoint your point is well taken. If you look across the 
board as to what the United States does with regards to mining 
and operations or cement manufacturing our energy intensity is 
far better than developing countries and our emissions per unit 
of output is far lower than developing countries. And so, if we 
enact expensive regulations that are going to drive these 
companies overseas, you are essentially exporting those CO2 
emissions and making no noticeable impact in climate, you're 
actually making things worse, so that's problematic.
    Second, I think the environmental review and the permitting 
processes for all energy infrastructure projects are in need of 
reform, whether it is for rare earth mining, whether it is 
renewable projects and transmission lines and citing, the more 
we have competitive regulatory reform that allows these 
technologies to come online, that allows these mines to be 
developed, the better off we'll be in terms of an economic 
efficiency standpoint, but also just from an energy access 
standpoint.
    Mr. Oppenheimer. I think both concerns are valid. If we are 
fortunate and make an energy transition quickly, that will 
probably involve electrification of transportation. That 
implies if it is going to work and reduce carbon dioxide 
emissions at the same time, a grid with higher levels of 
storage and a smart advanced grid that can wield the 
intermittent renewable power, merge it with remnant amounts of 
fossil fuel power over time.
    Mr. Armstrong. I want to just briefly--storage requires 
batteries.
    Mr. Oppenheimer. That is correct. Storage--these issues 
about rare earth metals, et cetera, are issues of batteries, 
too, but it is not a solution to the problem to let an industry 
develop here, which would maybe satisfy security concerns and 
let it be as dirty as the same industry is in China. It is a 
healthy, strong, reasonable regulatory system that we need to 
make sure we don't wind up with a cesspool here the way it is 
in some other countries.
    Mr. Armstrong. Well, and I don't disagree with that, I 
mean, we talk about permitting for solar and wind and the 
problems we run into in that whether it is at the State or the 
Federal level--I mean, I can't imagine--I mean, in all reality, 
the permitting for rare earth mine, I mean we are not going--I 
mean, we--developing these quickly is not--I hope we do develop 
them, but I'm a little skeptical that we can develop them 
quickly. I'm more concerned about reliance on a lot of these 
countries to provide our energy after working hard to become 
energy independent, but with that I know I'm past my time, so 
thank you, Mr. Chair.
    Mr. Rouda. Thank you. And now I recognize the gentlelady 
from Michigan, Congresswoman Tlaib.
    Ms. Tlaib. Thank you, Chairman. In my district, we have 
been fighting for years to hold corporate fossil fuel 
polluters, like Marathon Petroleum, the coal carbon industry 
accountable. When black piles--I don't know if you heard this 
story, but black piles of what they call petroleum coke started 
showing up on a Detroit riverfront blowing into people's homes, 
and many of us organized around that, even though the State and 
everyone said it wasn't toxic we had it independently tested 
and it had carcinogenic, and all these other toxins in there 
that cause cancer and respiratory issues, and we fought 
extremely hard to get it removed, but it was because of land 
use, not because of environmental protections.
    It was, you know, for many of us that live in these 
communities for us, you know, it is not 12 years. Our 12 years 
is here now, and that's how I feel when we talk about climate 
change. If folks want to see really what it looks like not to 
do anything, you should come to my district, where I think the 
smell sometimes--growing up I thought that smell was normal, 
and one in five children have asthma. I have some of the 
highest rates of cancer and respiratory issues in some of my 
ZIP Codes within the 13th congressional District.
    So I'm really concerned about the fossil fuel industry and 
others, which are continued to poison our national conversation 
and stop meaningful Federal action on climate change.
    So I would like to go right to the panel and to ask each of 
you, are you aware of any organizations that are currently 
working to spread misinformation, or sow unreasonable doubt 
about the science of climate change?
    Mr. Wirth. Well, I think the organizations that are in 
opposition have become much more subtle and sophisticated than 
they were before. You know, they're not coming out and 
confronting the issue of climate change.
    Ms. Tlaib. You mean they're hiding?
    Mr. Wirth. Well, hiding, to use your language. They are 
hiding, but they're much more sophisticated about it. And, you 
know, they're funding university laboratories for example, 
which is a way of insinuating themselves and legitimizing a lot 
of the work that they do, some of which is very valuable, by 
the way, but not to be perfectly straightforward and honest 
about what's going on.
    I'll give you an example. In my backyard, the oil shale and 
industry has just boomed, you know, and the amount of fracking 
looks like measles on some of the counties in Colorado. And one 
of the key issues going to what you were talking about in terms 
of health is methane emissions, and what we're now learning 
about methane emissions and children's health and endocrine 
disrupters and what happens, you know, it is a very, very 
subtle kind of science, and that's enormously important and has 
to be also part of what we think about. That's what you're 
seeing in Detroit. That's what we're seeing in north of Denver 
and that whole--in the whole shale area. You have to figure out 
how we're going to set the other rules related to methane just 
like you're looking for how do you set rules related to coal 
emissions.
    Ms. Tlaib. So, and I don't want to--there's organizations 
like Heartland Institute, the Cooler Heads Coalition, the 
Competitive Enterprise Institute, and ALEC, the American 
Legislative Exchange Council, are still promoting these climate 
misinformation campaigns as you know. So, for example, in 2011, 
ALEC made a submission to the EPA docket, which I would like, 
Mr. Chairman, without any objection I would like to submit for 
the record of the committee, where they said, quote, ``Carbon 
dioxide is a natural occurring, nontoxic, and beneficial gas, 
and it poses no direct threat to the public health.'' 
Statements like these are false and misleading. It makes me so 
angry because I have so many children that are directly 
impacted by doing nothing.
    Do not take--you know, many of them do not just take, you 
know--I wouldn't just take my word for it. Take the word of 
Eric Schmidt, the chairman of Google who vowed to disassociate 
his company from ALEC because, quote, ``The facts of climate 
change are not in question anymore.'' And Mr. Schmidt went on 
to say, ``and so we should not be aligned with such people that 
are just literally lying.''
    And so, Mr. Loris, is it true that your organization, the 
Heritage Foundation, has received funding from petroleum 
industry sources like the Koch brothers?
    Mr. Loris. We have in the past. I don't know when the last 
time they gave us money. But can I clarify one thing? Never has 
any donation or contribution to my organization ever influenced 
what I write or how I view energy economics.
    Ms. Tlaib. Okay. And you're a former employee of the Koch 
Charitable Foundation, correct?
    Mr. Loris. That's correct.
    Ms. Tlaib. According to a reporting, the Koch brothers have 
donated more than $100,000,000 since 1997 to dozens of groups 
that spread climate misinformation. According to reporting in 
the New Yorker, the Koch brothers have, quote, ``funded many 
sources of environmental skepticism, such as Heritage 
Foundation, which has argued that scientific facts gathered in 
the past 10 years do not support the notion of catastrophic 
human-made warming.'' Is that correct?
    Mr. Loris. The catastrophic part is what's correct. In my 
opening Statement as well as my written testimony I acknowledge 
that man-made emissions are contributing to warming. You know, 
from 1951 to 2010 you have seen over 50 percent of the warming 
likely attributed to man-made emissions. What I think is 
irresponsible is those climate catastrophe scenarios that are 
borderline impossible. If you look at what the IBCC looks at 
the national climate assessment with regard to different 
representative concentration pathways of greenhouse emissions, 
where you get the really scary climate scenarios, is if you 
have every ounce of coal extracted from the world, if you have 
low technological development, if you have low economic growth, 
and you have a tripling of our population essentially, and I 
don't think those scenarios are all that realistic. And so, 
yes, I think some of that climate catastrophe scenarios are not 
grounded in reality. That's not to say that climate change 
isn't occurring and that there aren't costs, but those high end 
scenarios are very unlikely.
    Mr. Rouda. At this time, I would like to recognize the 
gentlewoman from New York, Congresswoman Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman. One of my 
larger concerns is that climate change is not just an 
environmental issue. It is also a crisis created by massive 
corporate corruption and misconduct. In fact, ExxonMobil is 
currently the subject of a massive New York lawsuit alleging 
that the company defrauded and deceived its own investors by 
engaging in a, quote, ``longstanding fraudulent scheme,'' 
unquote, to downplay the risks posed to its businesses by 
necessary climate change regulations.
    What is concerning to me overall is this is part of a 
pattern, private and public, that it is about the role, the 
knowing, deliberate, and aggressive role of the fossil fuel 
industry and corporate lobbyists and misleading the public 
about the scientific consensus on climate change. For decades, 
there's been a coordinated effort to confuse the American 
public about dire threats to their threat--to their health and 
livelihoods. In fact, the fossil fuel industry and lobbyists 
have funded third-party groups often with misleading names in 
order to confuse, and so debate where the scientific consensus 
is established.
    So, Dr. Oppenheimer, I have a question. One of these groups 
it seems was called the Global Climate Coalition, the GCC. I 
mean, it was an international lobbyist group that opposed 
action to reduce emissions. Can you tell me anything about this 
group, including who funded their efforts?
    Mr. Oppenheimer. The Global Climate Coalition went out of 
business, first of all, in 2002, I think. So we're talking 
about history. I was very familiar with the activities of the 
Global Climate Coalition, because I attended many of the 
international negotiating sessions that resulted in the first 
U.N. Framework Convention on Climate Change, and then the Kyoto 
Protocol and which continued beyond that. They were active 
players at that time, and appeared to be quite influential with 
some of the delegations from various countries, particularly 
those that had strong interest in the fossil fuel industry.
    Ms. Ocasio-Cortez. So would you say----
    Mr. Oppenheimer. And they, at that time, themselves, put 
out some Statements, which were flat out distortions, lies, 
characterize them in a number of ways about the science, which 
is what I focus on the most. Go ahead.
    Ms. Ocasio-Cortez. Thank you. I apologize, it is just 
because we have limited time.
    Mr. Oppenheimer. I can't tell you who funded them, because 
I don't know.
    Ms. Ocasio-Cortez. Sure. Sure. So it seems here what we 
have evidence of is that the GCC, the Global Climate Coalition, 
they knew about the scientific basis of the greenhouse effect. 
They knew that this was true, but--and they knew that they 
could not deny the scientific consensus, so instead, their 
primary goal was to sow doubt. It seems as though here that the 
Global Climate Coalition was actually largely funded by 
lobbyist groups and business--and fossil fuel business 
interests. Does that--does their advocacy seem to align with 
that?
    Mr. Oppenheimer. Yes, but let me be a little more specific, 
to make it clear. I knew several scientists from, for instance, 
ExxonMobil, at that time. I worked with them closely at the 
Intergovernmental Panel on Climate Change. They were smart, 
they were knowledgeable. They never, in the scientific 
deliberations, ever said a word, which led me to believe they 
were biased because of their companies. But it seems to me the 
people who paid them didn't listen to what they said when they 
went home, because I know those people knew the truth.
    Ms. Ocasio-Cortez. Yes, absolutely. And it seems from what 
we have dug up in history, that is absolutely true, is that 
some of the first scientists to sound the alarm about climate 
change came from within ExxonMobil, and once they found out, 
and once the fossil fuel industry found out from their own 
scientists that they were responsible, in large part, for 
climate change, they then started to contract lobbyists groups 
and third-party organizations.
    In fact, in 1988 and 1989, when the Federal Government 
first started to realize the extent and the damage and the 
great threat that climate change posed, we moved immediately 
very quickly to the Kyoto Protocol. It was in 1992. And it 
seemed like we were well on our way to address this issue, 
until, according to a report by the Guardian, that former 
President Bush rejected the Kyoto Protocol, and I quote, 
``based on input from the Global Climate Coalition,'' this 
lobbyist-funded group.
    Senator Wirth, did you have any experience with industry 
attempts to undermine the Kyoto Protocol or any international 
climate agreements?
    Mr. Wirth. Oh, yes. We thought we were putting together a 
pretty good agreement. The Kyoto Protocol was the first time to 
make specific instructions for what would come out of the Earth 
Summit in 1992. So it would put very real restrictions in 
various places.
    Ms. Ocasio-Cortez. So would you say that it is fair to 
conclude that industry--fossil fuel industry lobbyists are 
largely responsible for our failure to act on climate change a 
generation ago?
    Mr. Wirth. Well, it certainly made an enormous 
contribution. And let me just tell you one story. At one of the 
major international meetings we were working, and the 
automobile, American Petroleum Institute, and there was one 
third very large lobbyist sat right outside of the negotiation 
room, and it was threatening them. They were clearly trying to 
bully delegates coming in and out and grabbed them as they came 
out. It was astonishing to me. Now, this is the first time I 
had seen this, and it was as if, you know, they had hired real 
shock troops.
    Well, they backed off of this kind of tactic later on, and 
then they faded out of existence, but they were right into it 
and, you know, were very, very effective in terms of getting 
people worries and concerns about who they were and what they 
were doing, and so on.
    Ms. Ocasio-Cortez. So these lobbyists were literally 
sitting right outside?
    Mr. Wirth. Just sitting right outside the door.
    Ms. Ocasio-Cortez. Watching the lawmakers come in?
    Mr. Wirth. There were three chairs right outside the door. 
I'll never forget it, you know, and I happened to know, you 
meet all these guys in the process, and I went over and said, 
What are you doing? And they sort of laugh and they kind of 
buttonhole somebody again. You know, it was maybe the low point 
of all of that, but it was very real.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Rouda. Congresswoman Ocasio-Cortez, I'm actually going 
to give you a little bit more time. We are trying to 
accommodate another member coming.
    Ms. Ocasio-Cortez. Fabulous.
    Mr. Rouda. So I am going to let the acting ranking member 
follow you for a minute or two while another member gets here.
    Ms. Ocasio-Cortez. Thank you. It is my lucky day.
    Mr. Rouda. So you have got approximately 30 seconds to ask 
one more question.
    Ms. Ocasio-Cortez. Great. So I have another question here. 
Dr. Oppenheimer, can you tell us about the climate 
misinformation campaigns of the American Petroleum Institute?
    Mr. Oppenheimer. They never showed me their plans, although 
I do remember that some of them accidentally became public some 
time during the second Bush Administration. And the name of API 
appears in many of the groups that have been identified today 
as members, supporters, funders, and my interactions with the 
representatives of API at the climate negotiations at, I think, 
meetings of the plenary sessions of the Intergovernmental Panel 
on Climate Change made it quite clear that they were there to 
influence the delegations, which they have a right to do, by 
the way.
    What is unseemly is the kind of thing that Senator Wirth 
indicated, which I was witness to, too, these people would sit 
in the meetings, send hand signals sometimes to delegates, and 
essentially seem to be instructing, I remember in one episode, 
the delegates from Saudi Arabia.
    Ms. Ocasio-Cortez. Wow. Well, so it was almost like the 
lobbyists were the pitcher, and they were kind of giving these 
hand signals letting the delegates know what they can and 
cannot vote on based on lobbyists' interests.
    Mr. Oppenheimer. Absolutely. And it was widely observed and 
widely known.
    Ms. Ocasio-Cortez. Shocking.
    Mr. Wirth. It is important to point out, also, if I might, 
that the companies quickly faded out. No longer could you find 
companies as members of the Global Climate Coalition, but 
rather, they were trade groups, the Farm Bureau, the Edison 
Electric, the American Forest Products, the Chamber of 
Commerce, so that was their cover group, so those were the 
dominant members.
    Ms. Ocasio-Cortez. So they were kind of creating these 
second and third degree organizations so that they could 
distance themselves from the political damage of climate 
denial, but still fully participate and fund it.
    Mr. Wirth. That was always my opinion, yes.
    Ms. Ocasio-Cortez. One last question with the API. In 1998 
the American Petroleum Institute created a multimillion dollar 
multiyear communications plan to create climate skepticism. Mr. 
Chairman, I ask unanimous consent to add these documents, which 
we have obtained, to the record.
    Mr. Rouda. So moved. And you are out of time.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Rouda. With that, I would like to turn it over to the 
active ranking member, Mr. Higgins from Louisiana, for two 
minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Gentlemen, you all 
have struck me as an excellent cross-section of reflective of 
the very best of American intellect. Senator, what a wonderful 
statesman you are. Sir, and you have struck a tone here that 
has made me smile.
    Mr. Wirth. You're very kind. Thank you.
    Mr. Higgins. Doctor, and Mr. Loris, your scientific 
observations have been enlightening. I would just like to--I 
would just like to challenge this body, and I would like you 
gentlemen to respond. By what measure would you advise us to 
move forward with reason and seeking truth within the 
parameters of our constitutional authority, and in recognition 
of states' and individual rights, and within that context would 
you agree that scientific consensus changes through the years 
what was once considered scientifically unviable is in the next 
scientific journal found viable. What was once believed to be 
absolutely true is discovered to be not true.
    So within the context of a bipartisan, bicameral Congress 
with a sworn duty to serve the people and the representative 
republic of these United States, by what measure may we move 
forward? And I'll begin with you, Senator.
    Mr. Wirth. Well, I think one of the first things I would 
do, Mr. Chairman, is to convene some of these other experts who 
have really dealt directly with this. For example, Chad 
Holliday, who is the chairman of Shell, may be one of the most 
reasonable executives you ever met, and he is working very hard 
to get his colleagues among the very big oil companies to come 
kind of get on board and what can they do to advance the goals 
of Paris and get to the 2050 goals. And he is a remarkable man 
who previously was the head of DuPont and was chairman of the 
board of the Bank of America before assuming his 
responsibilities at Shell, which I think is now the largest 
American oil company.
    But anyway, I would have him come. I would have Naomi 
Oreskes from Harvard come, who has done the best research that 
I know of in terms of who was trying to influence opinion and 
how did they do it, and when did they do it? You know, when did 
they know and when did they do it? She is absolutely terrific. 
It is getting people like that, at some length, so you have a 
chance to talk to. You know, these five-minute things are 
great, I understand that, and----
    Mr. Higgins. I'm quite sure that with the chairman's 
leadership and the ranking member for whom I sit today with 
their leadership, that's the formula we shall seek, and perhaps 
the gentleman can answer questions in writing. Mr. Chairman, my 
time has expired.
    Mr. Rouda. Thank you. At this time I would like to 
recognize from the state of Kentucky, Congressman James Comer, 
also the ranking member of this subcommittee. Welcome.
    Mr. Comer. Thank you, Mr. Chair, and I know that this 
committee has gone long, and I just wanted to clarify something 
from the full committee meeting this morning with respect to 
some statements that were made regarding the questions that I 
asked Senator Kerry.
    You know, I don't think anyone on our side denies climate 
change. We just basically had questions about how we're going 
to pay for this legislation. That was the first part of the 
question that I wanted to ask Secretary Kerry and Senator 
Hagel. And I didn't get to the next part of the question, or, I 
guess, rather, statement that I wanted to make was that with 
respect to agriculture and coal, two industries that are huge 
in my Southern and Western Kentucky District of Kentucky. With 
respect to coal, I don't disagree that the natural gas is 
cheaper than coal today.
    I just feel that we need to have a diverse energy portfolio 
in America, and I believe that there are negative implications 
that are affecting communities that a lot of people in 
Washington don't realize, with respect to agriculture.
    And with all due respect to John Kerry, he was talking 
about crop yields and things like that. I doubt he's grown a 
lot of crops in his lifetime, and I'm a farmer, former 
Commissioner of Agriculture. I believe that every year, yields 
have significantly increased, and I believe agriculture doesn't 
get the credit it deserves in making efforts to reduce its 
carbon footprint.
    We in agriculture want to pass the land to the next 
generation in better shape than it was when we received it. And 
those are some of the statements that I wanted to make that I 
didn't have time to make today because we were arguing over the 
cost of the first proposal that's received a lot of attention 
with respect to climate change the Green New Deal.
    But I look forward, ranking member and chairman, to be able 
to have dialog on this issue. I do think it is an important 
issue, but I think that it has been heavily politicized in a 
way that is creating unrealistic expectations for people that 
believe passionately in the issue. So, hopefully, we'll have 
good dialog as we move forward, and we'll be able to address 
the concern, and figure out a realistic path forward in a way 
to pay for any major proposed changes that don't put the United 
States at a competitive disadvantage.
    There was a lot of knocking by Senator Kerry on President 
Trump's leadership. One thing that I think the American people 
support, or at least they do in my district, is the President's 
leadership in trying to put America back on a level playing 
field to create manufacturing jobs, to bring back manufacturing 
jobs.
    One reason we lost manufacturing jobs to China and other 
countries is they have much more lenient environmental laws, 
and when you poll the American people, the issue that 
consistently rises to the top of their concern, whether they're 
liberal or conservative, whether they're rich or poor is the 
economy. So I applaud the President's leadership in trying to 
do that, and I look forward to having open dialog with both 
sides as we come to solutions that are affordable and 
achievable for the American public. With that, Mr. Chairman, I 
thank you and yield back.
    Mr. Wirth. Mr. Chairman?
    Mr. Rouda. Yes.
    Mr. Wirth. Can I just comment very briefly on this, the two 
points that are made at the beginning? I think those are 
grounds for two really good hearings going back to the question 
of where you go from here. One, the impact on coal communities 
is something that is very seldom I think really drilled down 
on. People are like only so many jobs for coal miners, but 
that's not the point. There are truck drivers and restaurants 
and whole communities that are dependent upon this, and how do 
we make that transition? I don't think we know how to do that, 
and I think that's a real contribution that can be made by this 
committee.
    Similarly, in the area of agriculture, there has been much 
talk about the impact that agriculture can have in working on 
the climate issue, and sequestering carbon and so on, but it 
has been skin deep in terms of, I think, for the most part, the 
analysis. And so that's a second area that I think you can very 
constructively delve into and, you know, come up with a set of 
recommendations that really haven't been as deeply probed as I 
think they have to be. So thank you, Mr. Chairman.
    Mr. Oppenheimer. Could I add to that, Mr. Chairman?
    Mr. Rouda. I'm sorry, Dr. Oppenheimer, is that you?
    Mr. Oppenheimer. With regard to the two points you made 
about coal and agriculture also, and I greatly support what 
Senator Wirth said, globally, that includes the United States, 
also. I don't know about the situation in Kentucky. Crop yields 
have actually slowed. The growth in crop yields is not what it 
was several decades ago, and it slowed because the benefits of 
the green revolution have basically run out, they have spread 
worldwide. And in addition, there's another headwind, that is, 
that there's evidence that the climate changes that have 
occurred have marginally started to reduce crop yields of the 
major cereal grains in many areas. I'm not asserting that it 
has affected Kentucky yet. It is to be of concern for the 
future.
    So we welcome the engagement of farmers both in the issue 
of how to adapt to these changes and how they can contribute to 
enhanced carbon sequestration, for instance.
    The other is, you know, it is perfectly plausible that a 
technology, technologies that exist, to capture carbon dioxide 
emissions from coal burning power plants and scrub them and 
sequester them, could be part of the long-term solution.
    So I think we ought to work together to try to figure out 
which of these opportunities are the most economical, which 
will solve the problem across the board, which will bring co-
benefits of reduced air pollution, and, you know, I don't think 
we need to write anything off completely.
    Mr. Rouda. Thank you, Dr. Oppenheimer, and thank you 
Senator Wirth, and thank you Ranking Member Comer for your 
comments, as well. At this time I would like to recognize the 
gentleman from California, Congressman Gomez, for five minutes.
    Mr. Gomez. Thank you, Mr. Chairman. In light of this 
history of climate denials, I'm deeply concerned about 
President Trump's dangerous statements on climate change, and 
how they can lead to another 30 years of inaction on this 
issue. It might come as a surprise to many that President Trump 
did not always hold these anti-climate change beliefs. In 2009, 
along with Deepak Chopra, Ben and Jerry, and his three 
children, the current President signed on to a full-page ad in 
the New York Times calling on President Obama and Congress to 
pass legislation restricting greenhouse gas emissions. It read, 
quote, ``We support your effort to ensure meaningful and 
effective measures to control climate change, an immediate 
challenge facing the United States and the whole world today.'' 
It goes on, quote, ``If we fail to act now it is scientifically 
irrefutable that there will be catastrophic and irreversible 
consequences for humanity and our planet.''
    But as we sit here today, the President regularly goes on 
unhinged and on rants about climate change that could be pulled 
straight out of the industry playbook, making statements that 
are clearly scientifically inaccurate, to say the least.
    Dr. Oppenheimer, I would like to run a couple of the 
President's statements by you to assess their validity. Leading 
up to and during his campaign, the President dubbed climate 
change, quote, ``a hoax,'' ``a total hoax,'' ``an expensive 
hoax,'' and ``a total and very expensive hoax.'' I guess we got 
his point. He believes it is a hoax. Is climate change a hoax, 
Dr. Oppenheimer?
    Mr. Oppenheimer. Decidedly not.
    Mr. Gomez. The President has accused climate scientists as 
having, quote, ``a political agenda.'' Are your scientific 
opinions and those of your colleagues based on a political 
agenda?
    Mr. Oppenheimer. A good scientist can separate his 
political and personal biases from his scientific 
understanding, his or her. If you can't do that, you shouldn't 
be a scientist. My colleagues work hard to do that.
    Mr. Gomez. Is to say the world is round, and again it 
circles the sun a political agenda?
    Mr. Oppenheimer. Not as far as I can tell.
    Mr. Gomez. Science. In an interview with 60 Minutes in 
October 2016, the President said, though he no longer thinks 
global warming is a hoax, quote, ``I think something's 
happening, something is changing, and it will change back 
again.'' Wow, he changes his mind a lot.
    Dr. Oppenheimer, if we do not take any action to decrease 
our emissions is it likely that climate change will change back 
again, that it won't occur?
    Mr. Oppenheimer. No. The climate does vary. It does vary 
due to many factors, including variations in earth's orbit, 
which are very slow, and variations in the sun's intensity, 
which are small, however. What we know now is that human beings 
have taken control of the climate machine, so to speak. The 
largest variations in climate are going to be the global 
warming trend for as far in the future as we can see.
    Mr. Gomez. Thank you. In the same interview, this was a 
doozy of an interview referring to sheets of ice melting into 
the ocean in Greenland, the President said, You don't know 
whether that was--that would have happened with or without man. 
Dr. Oppenheimer, how sure are scientists that these changes in 
our climate are due to human activity?
    Mr. Oppenheimer. We are sure that most of the climate 
change over the past 50 years is due to human activity. With 
regard to the ice sheets, they're complicated. Certain parts of 
them are clearly melting due to climate change, due to the 
human-induced climate change. With other parts, the changes are 
not fully understood by us.
    Mr. Gomez. Thank you. Dr. Oppenheimer, this kind of 
rhetoric, I believe, is really designed to mislead the American 
people, and will delay critical congressional action in order 
to maintain the profits of polluters.
    Senator Wirth, would you agree that in order to address the 
climate change at a global level, the United States must play a 
leading role?
    Mr. Oppenheimer. No question about it, and the world at 
every one of these--every meeting that I went to over a 30-year 
period of time, you walk into a room, the first question you 
can feel among your colleagues is what does the United States 
think about this? That was so important. It was thrilling to be 
a U.S. Representative, but also you recognize the enormous 
responsibility the United States had as we had the research, we 
had the capacities to lead and to persuade and to become 
engaged. It was a wonderful time, and we have to get back to 
that again.
    Mr. Gomez. I agree with you. I believe that the U.S. role 
and its leadership on this issue can't be overstated.
    Before I yield, Mr. Chairman, I would like to ask for a 
unanimous consent to regarding the ad that I mentioned. It 
reads, ``Dear President Obama and the U.S. Congress, Tomorrow 
leaders from 192 countries will gather at the U.N. Climate 
Change Conference in Copenhagen to determine the fate of our 
planet,'' and it was signed by Donald J. Trump, Chairman and 
President, Donald J. Trump, Jr., Eric Trump, as well as Ivanka 
Trump and the Trump organization.
    Mr. Rouda. So moved.
    Mr. Gomez. Thank you so much. I yield back.
    Mr. Rouda. I would like to thank our witnesses for coming 
today. I know it has been a long day with a few interruptions 
along the way, as well.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response. I ask our witnesses to please 
respond as promptly as you are able.
    I would also like to thank my colleagues here for attending 
this hearing, this very important hearing. This is a first of 
three phases. Today was focused on the historical evidence at 
hand. We'll also be talking about the current situation, as 
well as the future and the opportunity to address climate 
change. I am encouraged that I do believe that smart capitalism 
and good government can provide the innovation and advancement 
to address these issues, and I am looking forward to working 
with the colleagues across both parties and accomplishing that 
outcome. With that being said, this hearing is adjourned. Thank 
you.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
